                The Strategy to Reemphasize Penalties in
               Corporate Examinations Could Be Enhanced

                                   August 2005

                       Reference Number: 2005-30-123




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          August 23, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION
                     COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - The Strategy to Reemphasize Penalties in
                             Corporate Examinations Could Be Enhanced
                             (Audit # 200430024)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Corporate Examinations. The overall objective of this review was to determine whether
      penalties were recommended during corporate examinations in accordance with IRS
      policies and procedures. To meet our objective, we reviewed a sample of closed
      corporate examinations, evaluated the adequacy of controls that ensure examiners
      properly consider and recommend penalties, and assessed the status of ongoing
      changes to improve the administration of penalties.
      In summary, the IRS has taken significant actions to implement a strategy that
      reemphasizes the role penalties play in promoting compliance with and fairness in the
      tax system by imposing an economic cost on those who do not voluntarily comply with
      the tax laws. There are a number of important reasons for taking these actions,
      including the tax gap (estimated to be in excess of $300 billion) and the use of
      potentially abusive transactions that understate corporate tax liabilities.
      While important steps have been taken to reemphasize penalties, we identified two
      issues the IRS could address to increase the likelihood its strategy will be successful
      and maximize the potential deterrent effect penalties may have on compliance. The
                                                           2

issues include improving the quality of penalty determinations in corporate examinations
and ensuring penalties are accurately reported in the IRS Data Books.1
Regardless of what new strategies and practices are established, the quality of
penalty determinations is ultimately the responsibility of the examiners. We reviewed
45 corporate examination cases that were closed in Fiscal Year (FY) 2004 and found
35 (78 percent) cases in which IRS procedures were not followed in determining
appropriate penalties for assessment. Although each of the cases in our universe had
at least 1 tax year with an additional recommended assessment exceeding $10,000,
examiners were either too lenient and did not recommend penalties that were warranted
or had not documented case files indicating that applicable penalties were considered.
Our case review results are similar to findings that continue to be identified by the IRS’
Quality Assurance staffs as well as those reported previously by the former IRS Internal
Audit function2 and the Government Accountability Office (GAO).3
Some in the media have expressed skepticism over whether the IRS is really serious
about using penalties as an enforcement tool. In FY 2002, for example, the IRS Data
Book showed there were just 22 negligence penalties assessed against corporations
out of 35,056 corporate examinations closed that year. However, when we compared
penalty data from the IRS Master File4 to that reflected in IRS Data Books, we found a
significant number of negligence penalties and other accuracy-related penalties were
misclassified in the IRS Data Books under the category of “Other.” When we corrected
for the misclassifications, our analysis showed the IRS, on average, annually assessed
1,935 negligence or other accuracy-related penalties in corporate examinations during
FYs 1999 through 2004. Consequently, if not corrected, the misclassifications could
undermine the potential deterrent effect negligence penalties may have on compliance.
To improve the quality of penalty determinations in corporate examinations, we
recommended the Commissioner, Small Business/Self-Employed (SB/SE) Division, and
Commissioner, Large and Mid-Size Business (LMSB) Division, ensure (1) examiners
receive more specific written feedback on the quality of their penalty determinations,
(2) managers review and approve decisions not to recommend penalties when there is
a substantial understatement, and (3) actions are initiated to implement a standardized
form to document the penalty decision process. To maximize the potential deterrent
effect penalties may have in convincing corporations to remain compliant, the Director,
Examination, SB/SE Division, should ensure the numbers of negligence and other
accuracy-related penalties are accurately reflected in IRS Data Books.

1
  IRS Data Books contain tax administration statistics on such topics as examination activities, collections, penalties,
and refunds.
2
  Now the Treasury Inspector General for Tax Administration Office of Audit.
3
  Tax Administration: Negligence and Substantial Understatement Penalties Poorly Administered
(GAO/GGD-91-91, dated July 1991).
4
  The Master File contains postings of all tax data and related information pertaining to taxpayers so the file reflects
a continuous updated and current record of each taxpayer’s account. All settlements with taxpayers are effected
through computer processing of the Master File account. The Master File data are also used for accounting records;
issuance of refund checks, bills, or notices; answering inquiries; classifying returns for audit; preparing reports; and
other matters concerned with the processing and enforcement activities of the IRS.
                                           3

Management’s Response: The Commissioner, SB/SE Division, agreed with the report’s
conclusion and will take corrective actions that are responsive to our recommendations.
First, performance management reminders will be issued to the field to support the
recommendation for proper documentation and managerial involvement. Second, when
examination adjustments result in a substantial understatement, non-assertion of the
penalty will be subject to managerial review. Both the LMSB and SB/SE Divisions will
communicate this requirement to the field via guidance memoranda. In addition, the
SB/SE Division will revise the IRM to include this requirement. Third, the existing
Penalty Approval Form 300 will be revised to provide the required proper documentation
for the penalty decision process. Fourth, the Director, Examination, SB/SE Division, will
issue a memorandum to the Chief Financial Officer to indicate the correct transaction
code and reference number for retrieving negligence and other accuracy-related penalty
assessment data from the Master File. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
                                 The Strategy to Reemphasize Penalties in
                                Corporate Examinations Could Be Enhanced




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Has Taken Significant Actions to
Reemphasize the Role Penalties Play in Tax Administration .................... Page 2
The Quality of Penalty Determinations in
Corporate Examinations Could Be Improved ............................................ Page 4
         Recommendations 1 through 3:.....................................................Page 12

The Internal Revenue Service Data Books Could
Provide More Information About the Assessment of
Accuracy-Related Penalties ...................................................................... Page 13
         Recommendation 4: .......................................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 16
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Overview of Selected Penalties
Applicable to Corporate Examinations ...................................................... Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 21
              The Strategy to Reemphasize Penalties in
             Corporate Examinations Could Be Enhanced

                        The public’s willingness to voluntarily comply with its
Background
                        responsibilities for preparing an accurate tax return, filing it
                        timely, and paying any tax due on time is the foundation of
                        our tax system. To encourage voluntary compliance, the
                        Congress placed numerous penalty provisions in the tax
                        laws for the Internal Revenue Service (IRS) to administer
                        through its Examination and various other compliance
                        programs.
                        Spread across the IRS’ four operating divisions, the
                        Examination Program is one of the agency’s largest
                        compliance programs. Its examiners are primarily
                        responsible for determining the correct liabilities for
                        taxpayers, including their liabilities for penalties.
                        Examinations of corporate taxpayers are usually conducted
                        in the field by the more experienced examiners working in
                        either the Small Business/Self-Employed (SB/SE) Division
                        or the Large and Mid-Size Business (LMSB) Division.1
                        During an examination of a corporate tax return, examiners
                        are required to consider a number of penalties when
                        recommending adjustments to a corporation’s tax liability.
                        The numerous penalties generally fall into two broad
                        categories: delinquency and accuracy-related. Delinquency
                        penalties are intended to encourage the timely filing of
                        income tax and information returns while accuracy-related
                        penalties promote the preparation and submission of
                        complete and correct information on tax returns. According
                        to our analysis of underlying information for the 2004 IRS
                        Data Book,2 the IRS assessed corporations with
                        112,719 delinquency penalties and 1,309 accuracy-related
                        penalties. Additional information on various penalties
                        within these two broad categories is included in
                        Appendix IV.
                        To ensure examiners are properly considering and
                        recommending delinquency and accuracy-related penalties,
                        the IRS has an array of controls in place. The IRS Policy
                        Statement on Penalties, the Internal Revenue Manual

                        1
                          The taxpayers served by the SB/SE Division include small businesses
                        and self-employed individuals, while taxpayers served by the LMSB
                        Division include corporations with assets of more than $10 million.
                        2
                          IRS Data Books contain tax administration statistics on such topics as
                        examination activities, collections, penalties, and refunds.
                                                                                         Page 1
                        The Strategy to Reemphasize Penalties in
                       Corporate Examinations Could Be Enhanced

                                  (IRM),3 IRS Examination Auditing Standards, and
                                  numerous memoranda issued by senior executives provide
                                  guidance, direction, and assistance to examiners in making
                                  their penalty determinations. A variety of first-line
                                  managerial practices, such as in-process or completed case
                                  reviews, have also been developed. These reviews are
                                  designed to ensure examiners are conducting quality
                                  examinations in accordance with IRS policies, procedures,
                                  and auditing standards. Additionally, the Quality Assurance
                                  staff may review the case file after the examination closes to
                                  assess the degree to which the examiner complied with the
                                  auditing standards, including those related to penalties. The
                                  purpose of these reviews is to collect information about the
                                  examination process, communicate areas of concern up the
                                  chain of command, identify potential training needs, and
                                  improve work processes.
                                  This review was performed in the IRS LMSB and SB/SE
                                  Divisions, which are respectively headquartered in
                                  Washington, D.C., and New Carrollton, Maryland. The
                                  audit was performed in accordance with Government
                                  Auditing Standards during the period September 2004
                                  through April 2005. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS has taken significant actions to implement a
The Internal Revenue Service
                                  strategy that reemphasizes the role penalties play in
Has Taken Significant Actions
                                  promoting compliance with and fairness in the tax system
to Reemphasize the Role
                                  by imposing an economic cost on those who do not
Penalties Play in Tax
                                  voluntarily comply with the tax laws. In June 2004, the IRS
Administration
                                  issued a new policy statement on penalties that established
                                  direction for the future and included overall goals4 for
                                  developing and implementing the policy. The new policy
                                  goals, like those of its predecessor, are focused on ensuring
                                  penalties are fairly and consistently applied. Unlike the


                                  3
                                    The IRM serves as the official compilation of procedures, instructions,
                                  and guidelines that govern operations in the IRS.
                                  4
                                    According to the United States Office of Management and Budget
                                  Circular A-11, Preparing, Submitting, and Executing the Budget, goals
                                  are broad statements of desired outcomes that should reflect the
                                  agency’s priorities and provide a clear direction for future action.
                                                                                                   Page 2
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           previous policy goals, however, the new ones address the
           role of accuracy-related and fraud penalties in deterring the
           use of abusive tax transactions and other noncompliant
           behavior that can undermine effective tax administration.
           There are a number of important reasons for taking these
           actions, including the tax gap (estimated to be in excess
           of $300 billion) and the use of potentially abusive
           transactions that understate corporate tax liabilities.
           Additionally, the IRS was criticized in the 1990s for what
           some perceived was an agency climate that emphasized
           revenue production at the expense of serving taxpayers.5 In
           responding to the criticisms, the IRS concedes enforcement
           suffered during this period and perhaps even contributed to
           the increase in abusive taxpayer behavior that currently
           exists. Figure 1 provides an overview of the goals reflected
           in the IRS’ new penalty policy.
                                   Figure 1: IRS Penalty Policy Goals

                       Goals                                  Overview
               Enhance and encourage     Penalties provide an important tool to achieve the
               compliance.               goal of collecting the proper amount of tax efficiently.
               Curb the use of abusive   Accuracy-related penalties combat the undermining
               tax transactions.         effect abusive transactions have on the tax system.
               Promote sound and         Penalties may occasionally be waived as part of a
               efficient tax             strategy to encourage prompt resolution of tax issues.
               administration.
               Promote consistency in    The IRS Office of Penalty and Interest Administration
               applying penalties.       reviews and approves changes to its Penalty
                                         Handbook, which all agency employees are to use and
                                         follow.
               Demonstrate fairness of   Provide taxpayers with opportunities to provide
               the tax system.           reasons why penalties should not be assessed by
                                         considering evidence in favor of not assessing
                                         penalties.

           Source: Treasury Inspector General for Tax Administration (TIGTA)
           analysis of IRS Policy Statement 20-1.

           To support the consistent application of penalties, the
           Appeals function and Office of Chief Counsel have clarified


           5
            For example, in “A Concept for Modernizing the Internal Revenue
           Service,” Document 10405, the IRS pointed out that it had focused more
           on enforcement than service.
                                                                                     Page 3
                       The Strategy to Reemphasize Penalties in
                      Corporate Examinations Could Be Enhanced

                                 their roles in the administration of penalties. The recently
                                 issued Office of Chief Counsel Notice 2004-036, for
                                 example, highlights the Office of Chief Counsel’s role with
                                 respect to the imposition of penalties. It states “in deciding
                                 whether to settle docketed cases, [Office of] Chief Counsel
                                 attorneys must consider the hazards of litigation with
                                 respect to the penalties independent of the hazards of
                                 litigation with respect to the underlying tax adjustments.”
                                 The Appeals function similarly provided clarification in a
                                 June 2004 memorandum that it will no longer trade penalty
                                 issues but will, instead, resolve penalties on the basis of
                                 their merits.
                                 To assist examiners and other field employees in the
                                 consistent development and application of penalties, an
                                 agency-wide training session on penalty administration was
                                 provided in 2004. The training session, among other things,
                                 instructed field personnel to give heightened scrutiny to
                                 cases involving a “listed” transaction or those the IRS
                                 considers potentially abusive, as well as transfer pricing
                                 issues. To augment the training, a comprehensive audit
                                 technique guide was developed and made available
                                 agency-wide to examiners. The document addresses the
                                 new penalty policy and considerations that apply to all
                                 taxpayers involved in tax shelter transactions. Additionally,
                                 there are other guidance documents and resources widely
                                 available to field personnel that include a penalty handbook,
                                 fraud handbook, technical advisors, and attorneys in the
                                 Office of Chief Counsel.
                                 While important steps have been taken to reemphasize
                                 penalties, we identified two issues the IRS could address to
                                 increase the likelihood its strategy will be successful. The
                                 IRS could improve the quality of penalty determinations in
                                 corporate examinations. It could also ensure penalties are
                                 accurately reported in the IRS Data Books to maximize the
                                 potential deterrent effect penalties may have on compliance.
                                 The IRS has long required its examiners to document case
The Quality of Penalty
                                 files with procedures used, information obtained, and
Determinations in Corporate
                                 conclusions reached in deciding to recommend or not
Examinations Could Be
                                 recommend applicable penalties during examinations. This
Improved
                                 documentation is a key component in a quality penalty
                                 determination for two reasons. First, the documentation is

                                                                                         Page 4
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           used as a control by third-party reviewers such as first-line
           managers. Second, the documentation is crucial when a
           corporation challenges a penalty determination. In these
           instances, the facts and circumstances developed and
           documented by the examiner are used in deciding whether
           the penalty should be sustained. Consequently, pro forma
           statements such as “no penalties applicable” are
           unacceptable according to the IRS procedures and should
           not be used.
           When there is an understatement of income exceeding
           $10,000, the required documentation should contain even
           more detail than that required in other examinations because
           the examiner’s manager should be actively involved. The
           purpose of this involvement is to develop a plan for jointly
           obtaining and documenting potential fraudulent activities
           that may be needed in a referral to the IRS Criminal
           Investigation Division for possible criminal prosecution.
           We reviewed 45 corporate examination cases that were
           closed in Fiscal Year (FY) 2004 and found 35 (78 percent)
           cases in which IRS procedures were not followed in
           recommending appropriate penalties for assessment.
           Although each of the cases in our universe had at least 1 tax
           year with an additional recommended assessment exceeding
           $10,000, examiners were either too lenient and did not
           recommend penalties that were warranted or had not
           documented case files indicating that applicable penalties
           were considered. As shown in Figure 2, most of the
           problems dealt with accuracy-related and/or information
           return penalty determinations.




                                                                   Page 5
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

                    Figure 2: Number of Problems Identified in Penalty
                      Determinations for 45 Corporate Examinations
            Delinquency penalty for not timely filing a
            corporate income tax return.
                                                                                 5

            Negligence, substantial understatement, or valuation
            misstatement penalties (accuracy-related).
                                                                                23

            Information return penalties related to Form 5471, Form 5472,
            and the Form 1099 Series of Information Documents (┼)
                                                                                18

            Fraud penalty.                                                       3
            Overall number of problems identified (√).                          49

           (┼) These are, respectively, Information Return of U.S. Persons With
               Respect To Certain Foreign Corporations, Information Return of a
               25% Foreign-Owned U.S. Corporation or a Foreign Corporation
               Engaged in a U.S. Trade or Business, and other information returns
               used to report real estate and numerous other transactions.
           (√) The total does not add up to 45 since multiple penalties were present
               in some cases.
           Source: TIGTA analysis of closed examination cases.

           For the most part, the cases reviewed did not entail
           complicated tax law issues and, except for a few instances,
           IRS officials who reviewed the problems in our case
           reviews agreed with our conclusions. We found, for
           example, 2 cases in which expenses were significantly
           overstated and well over $10,000 of income was misstated
           and/or not reported. Although the IRS considers these
           conditions potential fraud indicators, there was no
           documentation that indicated the manager and examiner
           developed an action plan in the cases as required.
           Additionally, no accuracy-related penalties were applied
           even though we found no obvious reasons why they should
           not have been applied.
           In numerous cases, examiners did not document the steps
           taken to ensure required information returns were filed even
           though not filing the returns or filing them late can involve
           significant penalties. In two cases, for example,
           corporations filed delinquent information returns to report
           foreign investment activities. In these instances, IRS
           guidance to examiners requires consideration of a $10,000
           penalty for each failure to file. However, we found no
           documentation showing the penalty was considered or
           assessed.
                                                                            Page 6
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           Our results are similar to findings that continue to be
           identified by the IRS’ Quality Assurance staffs, as well as
           those reported previously by the Government
           Accountability Office (GAO). In FY 2004 reports to IRS
           management, the Quality Assurance staffs in the SB/SE and
           LMSB Divisions reported that correct penalty
           determinations were made in no more than 67 percent6 of
           the cases reviewed. In 1991, the GAO reported7 finding
           problems with examiner substantial understatement and
           negligence penalty determinations. In the same 1991 report,
           the GAO also noted that the former IRS Internal Audit
           function8 had found substantial understatement penalties
           were not being recommended when they should have been
           as early as May 1985.
           Examiners could be held more accountable for the
           quality of penalty determinations
           Regardless of what new strategies and practices are
           established, the quality of penalty determinations is
           ultimately the responsibility of the examiners. As we have
           reported previously,9 performance feedback can be a very
           effective tool in helping examiners understand and meet
           their responsibilities. It also provides opportunities to give
           meaningful and constructive feedback on examiners’
           performance, pinpoint and address performance gaps, and
           hold examiners accountable for results. According to the
           United States Merit Systems Protection Board (MSPB),10
           continually monitoring and providing feedback to
           employees is perhaps the most important component of




           6
             The percentage represents the combined average of LMSB Division
           cases (59 percent) and SB/SE Division cases (77 percent).
           7
             Tax Administration: Negligence and Substantial Understatement
           Penalties Poorly Administered (GAO/GGD-91-91, dated July 1991).
           8
             Now the TIGTA Office of Audit.
           9
             Performance Management in the Large and Mid-Size Business
           Division’s Industry Case Program Needs Strengthening (Reference
           Number 2005-30-084, dated May 2005)
           10
              The MSPB is an independent, quasi-judicial agency that oversees and
           adjudicates the application of merit system principles within the
           Executive Branch.
                                                                          Page 7
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           managing performance. In a 2003 report11 to the President
           and the Congress, the MSPB stated:
                This component, more than any other, can give
                employees a sense of how they are doing and can
                motivate them to be as effective as possible.
                Ideally, through these ongoing interactions between
                employees and supervisors, employees learn how
                their work fits into the goals of the work unit and
                how it contributes to the larger mission of the
                agency.
           We reviewed the performance feedback provided to
           3312 examiners for the 45 cases we reviewed and found
           considerable evidence that strongly suggests first-line
           managers could take better advantage of workload reviews,
           midyear progress reports, and annual appraisals to hold
           examiners more accountable for their penalty
           determinations. As summarized in Figure 3, our analysis
           shows 12 of the 33 examiners received no narrative
           feedback on the importance of making quality penalty
           determinations in the workload reviews, midyear progress
           reports, and annual appraisals they received in FYs 2004
           and 2005 (through January 2005).




           11
              The Federal Workforce for the 21st Century: Results of the Merit
           Principles Survey 2000 (September 2003).
           12
              We were unable to secure performance feedback for all the examiners
           because some of the examiners had retired or transferred to other
           divisions or the documentation was not readily available.
                                                                         Page 8
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

                Figure 3: Analysis of Narrative Comments Addressing the
                  Quality of Penalty Determinations in the Performance
                  Feedback of 33 Examiners During FYs 2004 and 2005
                                (Through January 2005)
                                                                 Examiners
                                                         Number     Percentage
            No narrative comment in workload
                                                            16          48
            reviews.
            No narrative comment in midyear
                                                            26          79
            progress reports.
            No narrative comment in annual
                                                            26          79
            appraisal.
            No narrative comment in workload
            reviews, midyear progress reports, or           12          36
            annual appraisals.

           Source: TIGTA analysis of examiner performance feedback for the
           15-month period ending January 2005.

           Managerial review and approval is needed in decisions
           not to recommend penalties when there is a substantial
           understatement
           The IRM requires managerial review and approval of all
           recommended penalty assessments during examinations.
           This review and approval process helps guard against
           erroneous penalty assessments and incorrect calculations.
           However, the IRM does not ensure penalty decisions are
           sound when they result in not applying a penalty. The
           IRM,13 in these instances, generally does not require
           managerial review and approval, even if the examination
           results in a substantial understatement. Proper review and
           approval of penalty decisions in all examinations with a
           substantial understatement could help ensure the proper
           penalty decision was made, as well as address some of the
           longstanding problems with the quality of penalty
           determinations.



           13
             LMSB Division examiners are required to obtain managerial approval
           for recommending or not recommending penalties in certain abusive tax
           shelter transactions; whereas, SB/SE Division examiners are required to
           obtain managerial approval only in cases in which penalties are applied.
                                                                             Page 9
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           Developing a standardized form for documenting
           penalty decisions could be useful particularly when there
           is a substantial understatement
           To help ensure procedures and processes are followed and
           documented in LMSB Division examinations, first-line
           managers and examiners are required to complete a
           standardized Administrative Procedures form14 to include in
           examination case files. Although the form does not address
           penalties, it solicits answers to other important procedural
           and process questions as well as references to where
           supporting documentation for the answers are located in the
           case file. It also requires first-line managers and examiners
           to sign and date the form certifying the actions were
           completed.
           If well-designed, we believe a similar form could be
           developed at minimal cost that would provide an effective
           tool for improving the documentation process for penalty
           decisions. Like the Administrative Procedures form, the
           one for documenting penalty decisions will need to become
           a mandatory part of the examination process, included in
           examination case files, and its use evaluated during reviews
           by the Quality Assurance staffs in the SB/SE and LMSB
           Divisions. It will also need to contain questions that, among
           other things, encourage examiners to seek written
           documentation from corporations to include in case files
           justifying why particularly penalties should not be applied.
           Seeking such written documentation from corporations will
           be especially useful when there is a substantial
           understatement given that the standard for assessing a
           penalty in these instances contains objective criteria. In
           effect, the criteria creates a presumption that a substantial
           understatement penalty will be applied in a corporate
           examination when an understatement exceeds $10,000 or
           10 percent of the corrected tax, whichever is greater.15
           While the penalty can be avoided, certain conditions must


           14
             Form 13327 (Rev. 09-2004).
           15
             According to IRS Notice 2005-12, the substantial understatement
           penalty criteria is being modified to understatements that exceed the
           lesser of (1) 10 percent of tax required to be shown on the return for the
           taxable year (or, if greater, $10,000), or (2) $10 million.
                                                                            Page 10
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           first be met16 and the burden of proof for meeting those
           conditions is on the corporation. Consequently,
           corporations have an incentive to outline in writing, for
           examiners to evaluate, the reasons a substantial
           understatement penalty should not be applied. Although
           examiners are not currently prohibited from requesting such
           written documentation from corporations, we found no
           instances in our case reviews where examiners used this
           technique. Instead, case files indicated examiners generally
           relied on oral statements provided by the corporation’s tax
           representative, shareholders, or officers to make their
           penalty determinations.
           Numerous benefits would accrue by incorporating a
           well-designed penalty procedure and process form into the
           examinations. First, the form will help address the
           questions we and others have raised over the supporting
           documentation for penalty determinations. Second, it will
           facilitate managerial review and thereby help ensure the
           propriety of the penalty decision process. Third, it will
           ensure the facts and circumstances from the perspective of
           both the corporation and the Federal Government are fully
           developed and presented. Full development of the penalty
           is important for the Appeals function to sustain a penalty
           and for the Office of Chief Counsel to successfully defend
           the recommended penalty assessment if the corporation
           challenges the penalty. Finally, it will reinforce the IRS’
           policy of giving full and fair consideration to evidence that
           favors not imposing penalties.




           16
             For example, a corporation can avoid the penalty by showing that it
           has reasonable cause and acted in good faith.
                                                                         Page 11
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           Recommendations

           To improve the quality of penalty determinations in
           corporate examinations, the Commissioner, SB/SE Division,
           and the Commissioner, LMSB Division, should coordinate
           with their respective Directors to:
           1. Ensure first-line managers provide more specific written
              feedback to examiners during workload reviews on the
              quality of their penalty determinations and incorporate
              the feedback into examiner midyear progress reports and
              annual appraisals when appropriate.
           Management’s Response: Performance management
           reminders will be issued to the field to support the
           recommendation for proper documentation and managerial
           involvement.
           2. Require managerial review and approval of decisions
              not to recommend penalties when there is a substantial
              understatement.
           Management’s Response: When examination adjustments
           result in a substantial understatement, non-assertion of the
           penalty will be subject to managerial review. Both the
           LMSB and SB/SE Divisions will communicate this
           requirement to the field via guidance memoranda. In
           addition, the SB/SE Division will revise the IRM to include
           this requirement.
           3. Initiate actions to develop and implement a standardized
              form to document the penalty decision process. At a
              minimum, the form should be completed for and
              included in case files where examinations result in a
              substantial understatement. Additionally, it should
              contain specific questions that need to be answered for
              making quality penalty determinations, include
              supporting documentation for answers, be certified by
              first-line managers and examiners, and incorporated into
              reviews of Quality Assurance staffs.
           Management’s Response: The existing Penalty Approval
           Form 300 will be revised to provide the required proper
           documentation for the penalty decision process.


                                                                Page 12
                         The Strategy to Reemphasize Penalties in
                        Corporate Examinations Could Be Enhanced

                                   The IRS Data Book annually provides information on a
The Internal Revenue Service
                                   broad base of tax administration subjects that include the
Data Books Could Provide More
                                   number of returns filed with the IRS, amounts collected and
Information About the
                                   refunded, taxpayer assistance issues, and results from
Assessment of Accuracy-Related
                                   enforcement efforts. Additionally, the IRS Data Book
Penalties
                                   serves as an internal control17 since it helps ensure
                                   accountability for IRS operations by providing the
                                   Congress, media, and other stakeholders with information to
                                   better understand the challenges facing the agency and how
                                   well the agency is meeting those challenges.
                                   In publicly prepared remarks in March 2005,18 the IRS
                                   Commissioner indicated that enforcing the tax law is the
                                   area where the IRS challenges remain the greatest. To this
                                   end, the IRS Commissioner has made discouraging and
                                   deterring corporations from participating in abusive tax
                                   transactions a top priority in the IRS enforcement efforts.
                                   He also articulated a supporting enforcement strategy that
                                   encompasses mandating the assessment of stiff
                                   accuracy-related penalties against those involved in abusive
                                   tax transactions.
                                   However, some in the media have expressed skepticism
                                   over whether the IRS is really serious about using penalties
                                   as an enforcement tool, given the information presented in
                                   the IRS Data Books. In FY 2002, for example, the IRS
                                   Data Book showed there were just 22 negligence penalties
                                   assessed against corporations out of the 35,056 corporate
                                   examinations closed that year. We compared penalty data
                                   from the IRS Master File19 to that reflected in the IRS Data
                                   Books and found a significant number of negligence


                                   17
                                      Internal control, according to the GAO, is a major part of managing
                                   an organization. It comprises the plans, methods, and procedures used
                                   to meet missions, goals, and objectives and, in doing so, supports
                                   performance-based management.
                                   18
                                      IRS News Release: IR-2005-30.
                                   19
                                      The Master File contains postings of all tax data and related
                                   information pertaining to taxpayers so the file reflects a continuous
                                   updated and current record of each taxpayer’s account. All settlements
                                   with taxpayers are effected through computer processing of the Master
                                   File account. The Master File data are also used for accounting records;
                                   issuance of refund checks, bills, or notices; answering inquiries;
                                   classifying returns for audit; preparing reports; and other matters
                                   concerned with the processing and enforcement activities of the IRS.
                                                                                                  Page 13
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           penalties and other accuracy-related penalties were
           misclassified in the IRS Data Books under the category of
           “Other.”
           When we corrected for the misclassifications, our analysis
           showed the IRS, on average, annually assessed 1,935
           negligence or other accuracy-related penalties in corporate
           examinations during FYs 1999 through 2004.
           Consequently, if not corrected, the misclassifications could
           undermine the potential deterrent effect negligence penalties
           may have on compliance. Figure 4 contains a summary of
           our analysis and shows that approximately 11,611
           negligence and other accuracy-related penalties were
           assessed against corporations in FYs 1999 through 2004,
           not the 194 as reported in IRS Data Books.

             Figure 4: Differences Between the Number of Negligence and
            Other Accuracy-Related Penalties Assessed in the IRS Data Book
                  and on the IRS Master File During FYs 1999 – 2004
                                                  Number of
                                                  Negligence/
                            Number of          Accuracy-Related
                       Negligence Penalties    Penalties Assessed
             Fiscal    Assessed According     According to the IRS
             Year       to IRS Data Books         Master File        Difference

             2004              25                    1,309             1,284
             2003              12                    1,589             1,577
             2002              22                    1,512             1,490
             2001              35                    1,672             1,637
             2000              38                    2,062             2,024
             1999              62                    3,467             3,405

             Totals            194                  11,611            11,417
           Source: IRS Data Books and the IRS Master File.




                                                                       Page 14
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced

           Our discussions with IRS personnel in the SB/SE Division
           Office of Penalties and Interest20 and our own analysis found
           the misclassifications occurred because the IRS is capturing
           negligence penalty data using a pre-1990 Master File code,
           rather than a new code that was put in effect for returns due
           on or after January 1, 1990.

           Recommendation

           4. The Director, Examination, SB/SE Division, should
              initiate actions with appropriate IRS officials to ensure
              the numbers of negligence and other accuracy-related
              penalties are properly captured for and accurately
              reflected in IRS Data Books.
           Management’s Response: The Director, Examination,
           SB/SE Division, will issue a memorandum to the Chief
           Financial Officer to indicate the correct transaction code and
           reference number for retrieving negligence and other
           accuracy-related penalty assessment data from the Master
           File.




           20
             The SB/SE Division Office of Penalties and Interest is
           organizationally located under the Director, Examination, SB/SE
           Division. According to IRS documents, the SB/SE Division Office of
           Penalties and Interest has agency-wide responsibility for coordinating
           policy and procedures concerning the administration of penalties and
           interest, ensuring consistency with the penalty policy statement,
           reviewing and analyzing penalty and interest information, researching
           taxpayer attitudes and opinions, and determining appropriate action
           necessary to promote voluntary compliance.




                                                                          Page 15
                             The Strategy to Reemphasize Penalties in
                            Corporate Examinations Could Be Enhanced

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether penalties were recommended
during corporate examinations in accordance with Internal Revenue Service (IRS) policies and
procedures. We relied on the IRS’ internal management reports and databases to meet our
objective. We did not establish the reliability of these data because extensive data validation
tests were outside the scope of this audit and would have required a significant amount of time.
Additionally, we used judgmental sampling techniques, unless otherwise noted, to minimize time
and travel costs. To accomplish the objective, we:
     I. Reviewed a significant amount of source material to gain an understanding of penalties
        and the penalty assessment process. These sources included the Internal Revenue Code,
        Treasury Regulations, revenue procedures, and the Internal Revenue Manual, penalty
        handbooks, memoranda, Audit Technique Guides, and training materials.
    II. Reviewed prior Government Accountability Office (GAO) reports, information from the
        IRS quality management systems, penalty studies, discussion papers, and similar
        documents prepared by IRS internal and external stakeholders to identify concerns and
        issues with penalties.
    III. Analyzed a judgmental sample of 45 cases out of approximately 2,427 corporate
         examination returns having a recommended assessment exceeding $10,000 that were
         closed in Fiscal Year (FY) 2004 to determine whether penalties were applied in
         accordance with IRS policies and procedures. In selecting our sample cases, we excluded
         cases with recommended assessments under $10,000 because the standard for asserting
         the substantial understatement penalty includes criteria that understatements exceed
         $10,000. We also excluded Coordinated Industry Cases1 from our sample because
         different techniques are used in these examinations.
    IV. Analyzed FYs 2004 through 2005 (through January 2005) workload reviews, midyear
        progress reports, and annual appraisals for the examiners of the 45 cases included in the
        review to assess the types, quality, and amount of feedback they received on their penalty
        determinations.
    V. Used the GAO Standards for Internal Control in the Federal Government to assess the
       adequacy of controls established to ensure quality penalty determinations are made in
       corporate examinations.

1
 A Coordinated Industry Case is any case assigned to the Large and Mid-Size Business Division where the taxpayer
and its effectively controlled entities warrant the application of team examination procedures and techniques.



                                                                                                       Page 16
                       The Strategy to Reemphasize Penalties in
                      Corporate Examinations Could Be Enhanced

                                                                                Appendix II


                           Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Philip Shropshire, Director
Frank Dunleavy, Audit Manager
William Tran, Lead Auditor
Robert Jenness, Senior Auditor
Debra Mason, Auditor
Arlene Feskanich, Information Technology Specialist
Judith Harrald, Information Technology Specialist




                                                                                       Page 17
                       The Strategy to Reemphasize Penalties in
                      Corporate Examinations Could Be Enhanced

                                                                                Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Performance, Quality, and Audit Assistance, Large and Mid-Size Business
Division SE:LM:Q
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
      Commissioner, Large and Mid-Size Business Division SE:LM
      Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 18
                           The Strategy to Reemphasize Penalties in
                          Corporate Examinations Could Be Enhanced

                                                                                                   Appendix IV


       Overview of Selected Penalties Applicable to Corporate Examinations

This appendix provides a brief overview of some common penalties examiners should consider
and possibly apply during a corporate examination. There are relief standards that can be
invoked to avoid the imposition of the penalties below. The Internal Revenue Code (I.R.C.), for
example, generally provides that penalties can be avoided if there was reasonable cause and the
corporation acted in good faith.

                  Selected Penalties Considered During a Corporate Examination

                                             Delinquency Penalties

       Title           I.R.C. Section(s) ┼                                  Overview
   Failure to File         6651(a)(1)          If a corporate examination results in a tax deficiency and the tax
                                               return was not filed by the prescribed due date (or extended due
                                               date), a failure to file penalty can be applied on the tax deficiency
                                               from the tax return due date (or extended due date) until paid or
                                               until the maximum penalty is applied.
   Failure to File      6721, 6722, 6723,      Corporations are required to file certain information returns
    Information          6679, 6038(b),        and/or furnish certain statements to payees under various sections
      Returns              6038A(d)            of the I.R.C. Information return reporting penalties can involve
                                               amounts ranging from $50 up to $250,000.
                                        Accuracy-Related Penalties
    Negligence              6662(c)            Negligence includes any failure to make a reasonable attempt to
                                               comply with the provisions of the tax law, exercise ordinary and
                                               reasonable care in tax return preparation, or keep adequate books
                                               and records. The penalty is 20 percent of the portion of the
                                               underpayment attributable to negligence.
   Substantial              6662(d)            The substantial understatement penalty may be applied when an
  Understatement                               understatement exceeds $10,000 or 10 percent of the tax required
                                               to be shown for the tax year, whichever is greater. The penalty is
                                               equal to 20 percent of the underpayment of tax attributable to the
                                               understatement.√
    Substantial             6662(e)            The substantial valuation misstatement penalty is applicable if
    Valuation                                  the value or adjusted basis of any property claimed on a return is
   Misstatement                                200 percent or more of the amount determined to be the correct
                                               amount of such value or adjusted basis. The penalty is 20 percent
                                               of the underpayment of tax.




                                                                                                            Page 19
                             The Strategy to Reemphasize Penalties in
                            Corporate Examinations Could Be Enhanced

   Gross Valuation          6662(h)(2)(A)         Similar to the substantial valuation penalty, the gross valuation
    Misstatement                                  misstatement penalty may be imposed if the value or adjusted
                                                  basis of any property claimed on a return is 400 percent or more
                                                  of the amount determined to be the correct amount of such value
                                                  or adjusted basis. The penalty is 40 percent of the underpayment
                                                  of tax.
        Fraud                  6663(a)            If any underpayment of tax is due to fraud, a penalty may be
                                                  imposed equal to 75 percent of the portion of the underpayment
                                                  due to fraud. Although the I.R.C. does not define the term fraud,
                                                  most courts define fraud as the “intent to evade tax.”
┼ Citations are to I.R.C. (2005).
√ According to Internal Revenue Service Notice 2005-12, the substantial understatement penalty criteria is being
modified to understatements that exceed the lesser of (1) 10 percent of tax required to be shown on the return for the
taxable year (or, if greater, $10,000), or (2) $10 million.
Source: I.R.C.




                                                                                                             Page 20
  The Strategy to Reemphasize Penalties in
 Corporate Examinations Could Be Enhanced

                                             Appendix V


Management’s Response to the Draft Report




                                                 Page 21
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced




                                            Page 22
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced




                                            Page 23
 The Strategy to Reemphasize Penalties in
Corporate Examinations Could Be Enhanced




                                            Page 24
